j|©°1200
IN THE
^
UNITED STATES SUPREME COURT

GERALD A. SANFORD SR.,

APPELLANT

V

TENNESSEE DEPARTMENT OF CORRECTION, ET AL.,

APPELLEE

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES SUPREME COURT
FROM THE TENNESSEE STATE COURTS
Case No.___________________
Tennessee Appeal Case No. M2018-00860-CQA-R3-CV
Originating Case. No. 4727

m
i

*sS 1
-J

BRIEF OF APPELLANT

FILED
JUN 2 5 2020

GERALD A. SANFORD SR.
SOUTH CENTRAL CORRECTIONAL CENTER
P. O. BOX 279
RECEIVED
CLIFTON, TN 38425

ML- 1 0 2020

TABLE OF CONTENTS
COVER PAGE

,1

TABLE OF CONTENTS

n

QUESTION PRESENTED FOR REVIEW

in

LIST OF PARTIES....................................

in

INDEX OF APPENDICES........................

IV

TABLE OF AUTHORITIES

IV

STATUTES AND RULES

IV

REFERENCE TO THE OPINIONS................................................

1

JURISDICTIONAL STATEMENT.................................................

1

STATEMENT OF THE CASE AND FACTS..................................

1-5

CONSIDERATIONS GOVERNING REVIEW ON CERTIORARI

5-6

REASON FOR GRANTING THE PETITION...............................

6-9

CONCLUSION................................................................................

9-11

VERIFICATION UNDER OATH

11

PROOF OF SERVICE................

12

ii

QUESTION PRESENTED FOR REVIEW
I.

WHETHER A STATE COURT OF APPEALS HAS ENTERED A DECISION IN
CONFLICT WITH A DECISION OF A UNITED STATES COURT OF APPEALS AND
OTHER STATE COURT OF APPEALS ON THE SAME IMPORTANT MATTER; HAS
DECIDED AN IMPORTANT FEDERAL QUESTION IN A WAY THAT CONFLICTS
WITH DECISIONS BY A STATE COURT OF LAST RESORT; AND HAS SO FAR
DEPARTED FROM THE ACCEPTED AND USUAL COURSE OF JUDICIAL
PROCEEDINGS AS TO CALL FOR AN EXCERCISE OF THIS COURT’S
SUPERVISORY POWER WHEN THE TENNESSEE STATE COURTS ERRED BY
ABUSING THEIR DISCRETION WHEN THEY DISMISSED APPELLANT’S CASE
RULING APPELLANT DID NOT COMPLY WITH T.C.A. § 41-21-801.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
Appellant is Gerald A. Sanford Sr., a Prisoner at South Central Correctional Center, 555 Forest Ave.;
P. O. Box 279; Clifton, TN, 38425.
The Appellees are:
Tennessee Department Of Correction, TDOC; 320 6th Ave. North, Nashville, TN 37243.
CoreCivic; 10 Burton Hills Ave., Nashville, TN 37215.
Danny Dodd; Hardeman County Correctional Facility; P. O. Box 549; Whiteville, TN 38075.
Cinthia J. Kelly; South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Tyler Martin, Last known-South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Shane McClain; Last known-South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Samuel Mulkins, Last known-South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Scott Peeler; Last known-South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Brenda Pevahouse; South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Leigh Staggs; South Central Correctional Center; P. 0. Box 279; Clifton, TN, 38425.
Laura Templeton; South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Robin Todd; Last known-South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Daniel V. Toler; Last known-South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Robert Cole Turman; South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Tonya Warner; South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
Bruce Woods; Last known-South Central Correctional Center; P. O. Box 279; Clifton, TN, 38425.
iii

INDEX OF APPENDICES
APPENDIX A Petition to Rehear Denied on 4/21/20, from the TN Supreme Court At Nashville.
APPENDIX B

Tenn. R. App. P. 11 Application To Appeal Denied on 4/07/20, from the TN Supreme
Court At Nashville.

APPENDIX C

Mandate issued pursuant to the Court’s disposition filed 5/30/19, from the TN Court
of Appeals At Nashville.

APPENDIX D

Order of Dismissal filed 4/17/17, from the Waynesboro, TN Circuit Court.

TABLE OF AUTHORITIES
CASES

PAGE

C.F. Adams v Term, Den’t of Corn. No. 2005-00471-COA-R3-CV, WL 1574277, at *4
(Tenn.Ct.App. May 30, 2007)..............................................................................

7

Bradfield v Dukes. No. W2001-02067-COA-R3-CV, WL 1760237, at *3
(Tenn.Ct.App. Apr. 17, 2002)...............................................................................

7

Hanson v J.C. Hobbs Co.. LEXIS 807, WL 5873582, at *10 (Tenn.Ct.App. 2012).......

6

Houston v Lack. 487 U.S. 266, 108 S. Ct. 2379, 101 L.Ed. 2D 245 (1988)...................

9

Roberts v Roberts. LEXIS 992, WL 9466011, at *8 (Tenn.Ct.App. 2015).....................

6

STATUTES AND RULES

PAGE

28 U.S.C. § 1254 .................................

1

28 U.S.C. § 2101(e).............................

1

42 U.S.C. § 1983 .................................

.2,5

Rule 4(a)(1) Fed.R.App.P....................

9

Rule 10 Court of Appeals of Tennessee

5

Supreme Court Rule 14.1(d)...............

1

Supreme Court Rule 14.1(e)................

1

T.C.A. §41-21-801 ..............................

1,6,7,8,9

T.C.A. §41-21-805 ..............................

...6,7,8,9

T.C.A. § 41-21-807 ..............................

...6,7,8.9

' A.P. Rule 39..................................

10
iv

REFERENCE TO THE OPINIONS
Some citations of the official and unofficial reports of the opinions and orders entered in the case by
the Courts are unpublished and cannot be furnished as required by Supreme Court Rule 14.1(d).

JURISDICTIONAL STATEMENT
On 4/17/18, the Wayne County Circuit Court erroneously and unlawfully granted the Appellees
motions to dismiss.
On 5/30/19, the Court Of Appeals Of Tennessee at Nashville issued a Notice - Mandate, erroneously
and unlawfully agreeing with the Wayne County Circuit Court dismissing the case.
On 4/21/20, the Petition to Rehear was denied from the TN Supreme Court at Nashville signifying
the end of the appeal.
This petition should be granted since it will show the case is of such imperative public importance
as to justify deviation from normal Appellate practice and requires immediate determination in this
Court. 28 U.S.C. § 2101(e).
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254 and Supreme Court Rule 14.1(e).

STATEMENT OF THE CASE AND FACTS
On 9/27/17, Appellant filed this Complaint against Appellee CoreCivic, several of its employees,
Appellee Tennessee Department of Correction, and one of its employees.
On 4/17/18, the Wayne County Circuit Court erroneously and unlawfully granted the Appellees
motions to dismiss. Appellant filed a timely appeal.
On 5/30/19, the Court Of Appeals Of Tennessee at Nashville issued a Notice - Mandate, signifying
the end of the appeal, erroneously and unlawfully agreed with the Wayne County Circuit Court
dismissing the case.
On 4/07/20, the Supreme Court Of Tennessee at Nashville issued an ORDER denying the Tenn. R.
App. R 11 application to appeal.
On 4/21/20, the Supreme Court Of Tennessee at Nashville issued an ORDER denying the petition to
rehear.
The Tennessee lower and Appeal Court’s only reason for the dismissal was Appellant did not
comply with T.C.A. § 41-21-801. All other claims were never addressed.

1

Appellant clearly enunciated a legal basis for the allegations. Appellant, specifically, enunciated the
manner in which his rights were violated by each named Appellee under each violation and
Amendment including under 42 U.S.C. § 1983. Therefore, the claims against all Appellees satisfied the
applicable procedural requirements and stated a colorable claim for relief.
It is also confusing why certain named Appellees weren’t served. This error shouldn’t pardon them
or their malicious conduct under Federal and State law. Stated in relevant part on pages 2-5 of the
original Complaint:
Defendant Tyler Martin, hereinafter (“Defendant Martin”)...
Defendant Samuel Mulkins, hereinafter (“Defendant Mulkins”)...
Defendant Robin Todd, hereinafter (“Defendant Todd”) ...
Stated in relevant part on pages 1 and 2 of Appellant’s AMENDED/SUPPLEMENTAL
COMPLAINT FOR JOINDER OF CLAIMS AND PARTIES AND REQUEST FOR DEFENDANTS
TO ANSWER included:
Defendant Laura Templeton, hereinafter (“Defendant Templeton”)...
The Complaint described five incidents that occurred at South Central Correctional Center located
in Clifton, Tennessee. At all times relevant, all but one of the Defendants were employees of Appellee
CoreCivic which acted in their official capacity and under the color of law.
Incident one and two are intertwined
Appellant was charged with Possession of a Cellular Telephone (PCT) which led to him being
placed in Administrative Segregation. While in Segregation, Appellant asked the Disciplinary Hearing
Officer (DHO), Appellee Pevahouse, would he lose his prison job as a result of the disciplinary. Her
answer was “No, because it was not job related.” Appellant only signed a plea agreement based on
Appellee Pevahouse’s answer. The plea agreement was never viewed and/or approved by Appellee
Turman, the institutional Contract Monitor, as required by Tennessee law.
After Appellant completed the agreed punishment former Case Mgr. Asia Wynn informed Appellant
he had been unlawfully dropped from his prison job which was against the agreed upon plea
agreement. Later, former Unit Mgr. K. Buttram informed Appellant Appellees McClain, Peeler, and
Pevahouse had all requested the job drop and Appellees Dodd and Warner had unlawfully approved.
The Job Termination Form stated the dismissal was due to the disciplinary.
Appellee Todd was responsible for packing and inventorying Appellant’s personal property before
taking it to him in Segregation. Appellee Todd packed Appellant’s personal property then left it alone
with Inmate M. Byrd allowing him full access. {Appellee Todd was later reprimand and separated
2

from Inmate M. Byrd, attributable to their inappropriate relationship and scandal, which led to her
resignation.) When Appellant received his personal property, he discovered a massive amount of
personal property, including commissary items, were missing. When Appellant was released from
Administrative Segregation Appellees McClain and Peeler instructed Appellant to submit a Loss Of
Property Form. Appellant placed the forms under their office door. Appellant never heard a response.
Also during this time, Appellee Mulkins issued false defamatory publications against Appellant
when he proclaimed Appellant told prison officials Food Service Director (F.S.D.) Glen McGarry and
A.F.S.D. Adam Brown was bringing contraband into the prison. Specifically, Appellee Mulkins told
multiple Inmates “Sanford (Appellant) is ‘snitching’ and I thought y’all should know.”
Incident three
Appellant was forced to ask Appellee Martin for a grievance. After Appellee Martin provided the
grievance he demanded Appellant’s name and TDOC number so he could log it in. Appellant informed
Appellee Martin he was violating TDOC policy 501.01 VI.(B). Twenty-Six hours later Appellant’s
cellmate, Derrick Taylor #311608, received a disciplinary infraction. The disciplinary report stated the
previous nights encounter between Appellee Martin and Appellant. The prison disciplinary board, first,
refused to dismiss but later reluctantly dismissed the infraction against Appellant’s cellmate.
After the disciplinary infraction multiple staff informed Appellant Appellee Staggs was instructing
all staff to violate the law and TDOC policy by demanding the name and TDOC numbers of Inmates
requesting grievances.
Incident four and five are intertwined
Appellant entered his housing unit and informed Appellee Toler, he urgently needed to release his
bodily functions and requested access to his cell. Inmates only have access to their cells via the
Officer. Fifteen minutes later Appellant sought out Appellee Toler who was sitting in a chair, sorting
out mail. Appellant pleaded with Appellee Toler to open his cell so he could relieve himself. Appellee
Toler responded, “I’ll let you in when I finish sorting out the damn mail!” Case Mgr. Tracey Sweat
heard and ordered Appellee Toler to open the cell. It was now thirty minutes after the initial request
and Appellant still hadn’t relieved himself. After Tracey Sweat’s order when Appellee Toler begin
walking to Appellant’s cell unknown to everyone Appellee Toler called for assistance stating Appellant
had threatened him. Appellant was behind him and no words were spoken. Case Mgr. Sweat stated to
everyone, including Appellee McClain, she never heard Appellant issue any threats. S/CO Wesson
informed Appellee McClain Appellant had not committed any violations and taking him to Segregation

3

was a mistake. Appellee McClain disregarded his pleas. S/CO Wesson and C/O Jackson was directed
to take Appellant to Segregation for threatening Appellee Toler by Appellee McClain.
When Appellant arrived at Segregation he was taken to the second floor/top tier. Appellant
informed staff he has a medical stipulation he is only housed on the bottom floor. Appellant was still
forced into the cell.
Unknown to Appellant, three days earlier on 9/3/17, two big cans of OC2 was emptied on an Inmate
in a cell and never cleaned. Appellant was forced into that same cell with the Inmate. The cell still had
the horrible stench of the spray and didn’t have a working light. Appellant was told “You’ll be
alright... it won’t kill you.” Appellant barely slept due to constant choking and sneezing and suffered
from a headache for two days.
It should be noted Defendant Toler was later arrested when he called the institution stating,
“I’m going to teach y’all something,” while he sat in the parking lot. When he was arrested he
had an AR15, over 2,000 rounds, and a “kill list” that included staff and Inmates in his
possession.
When Appellant was released from Segregation and assigned to the second level/top tier, Gemini A
210. Being assigned to the second level/top tier caused Appellant a tremendous amount of pain and
sometimes he stayed in his cell and missed meals because it was very difficult for him to ascend and
descend the stairs.
Later, former Chief Deatherage began telling Appellant he was moving. On 9/25/17, Appellant
clearly listed “Gemini A 210” as his cell in the library. When Appellant was asked where did he live it
prompted him to believe he had been moved without his knowledge which often occurred. Alarmed
Appellant went to Gemini A. While Appellant was out Appellee Kelley was contacted in the countroom. When Appellant returned stating he was still assigned to Gemini A 210, former Librarian Wanda
Spears stated Appellee Kelley told her to issue a disciplinary report. Wanda Spears stated due to the
confusion the disciplinary was unwarranted. On 9/26/17, Appellant received a disciplinary report from
Appellee Kelley. On 9/27/17, Appellee Kelley moved Appellant.
Appellant was at the disciplinary board with Appellee Pevahouse regarding the disciplinary report
from Appellee Kelley. Appellant explained there was confusion because he was told he was moving
and now had actually moved. Appellant was threatened with five days in Segregation if he wanted a
hearing. Since Appellant still requested the hearing Appellee Pevahouse stated the charge was being
upgraded to a class A and thirty days in Segregation was now the punishment. Feeling ambushed and

4

under extreme duress Appellant reluctantly signed a guilty plea.
Finally, in the AMENDED/SUPPLEMENTAL COMPLAINT Appellee Templeton put Appellant out
of the law library stating it was crowded and he didn’t have a pass. When former Principal, Appellee
Woods, was informed, he stated, “... you gotta go.” However, Appellee Templeton allowed Inmate Bias
to stay without a pass. Appellee Woods had also directed another Inmate, Inmate Henry, to stay
without a pass and when they were claiming the law library was full. When Appellee Templeton was
claiming the law library was full only twenty-three (23) Inmates were in the law library when thirty
(30) is the capacity. Significantly, Appellant’s name was number 1 of 30 on the law library list
indicating he had a pass.

CONSIDERATIONS GOVERNING REVIEW ON CERTIORARI
The need for this Writ is two State Courts of last resort entered a decision in conflict with relevant
decisions of this honorable Court on the same important question; has decided an important question of
established law in a way that conflicts with a decision by another State Court of last resort or United
States Court of Appeals; has so far departed from the accepted and usual course of judicial proceeding,
and sanctioned such a departure as to call for an exercise of this Court’s supervisory power.
Under 42 U.S.C. § 1983, there is a civil cause of action for individuals who are deprived of any
rights, privileges, or immunities secured by the United States Constitution or federal laws by those
acting under color of state law. Legal theories of recovery need not be spelled out as long as the
relevant issues are sufficiently implicated in the pleadings. In addition, the Court asks not whether a
complaint points to a specific statute, but whether relief is possible under any set of facts that could be
established consistent with the allegation.
Rule 10 from the Rules of the Court of Appeals of Tennessee provides in relevant part:
This Court, with the concurrence of all judges participating in the case, may affirm,
reverse or modify the actions of the trial Court by memorandum opinion when a formal
opinion would have no precedential value.
There are circumstances where, if the trial Court fails to make findings of fact, the Appellate Court
may proceed to determine where the preponderance of the evidence lies. Generally, the appropriate
remedy when a trial Court fails to make appropriate findings of fact and conclusions of law includes
remanding the cause to the trial Court for written findings of fact and conclusions of law. However, on
occasion, when a trial judge fails to make findings of fact and conclusions of law, the Appellate Court

5

may “soldier on” when the case involves a clear legal issue, or when the Court’s decision is “readily
ascertainable.” Hanson v J.C. Hobbs Co.. LEXIS 807, WL 5873582, at *10 (Tenn.Ct.App. 2012).
Similarly, in Roberts v Roberts. LEXIS 992, WL 9466011, at *8 (Tenn.Ct.App. 2015), the Court found
“an absence of an appropriate best interest analysis” such that there were “no factual findings that
provide insight as to why the trial Court reached the decision that it ultimately did.” On that basis, the
Court vacated the trial Court’s order and remanded the case back to the trial Court for further
proceedings.
An abuse of discretion occurs when a Court strays beyond the applicable legal standards or when it
fails to properly consider the factors customarily used to guide the particular discretionary decision. A
Court abuses its discretion when it causes an injustice to the party challenging the decision by (1)
applying an incorrect legal standard, (2) reaching an illogical or unreasonable decision, or (3) basing its
decision on a clearly erroneous assessment of the evidence.

REASON FOR GRANTING THE PETITION
A STATE COURT OF APPEALS HAS ENTERED A DECISION IN CONFLICT WITH A
DECISION OF A UNITED STATES COURT OF APPEALS AND OTHER STATE COURT OF
APPEALS ON THE SAME IMPORTANT MATTER; HAS DECIDED AN IMPORTANT
FEDERAL QUESTION IN A WAY THAT CONFLICTS WITH DECISIONS BY A STATE
COURT OF LAST RESORT; AND HAS SO FAR DEPARTED FROM THE ACCEPTED AND
USUAL COURSE OF JUDICIAL PROCEEDINGS AS TO CALL FOR AN EXCERCISE OF
THIS COURT’S SUPERVISORY POWER WHEN THE TENNESSEE STATE COURTS
ERRED BY ABUSING THEIR DISCRETION WHEN THEY DISMISSED APPELLANT’S
CASE RULING APPELLANT DID NOT COMPLY WITH T.C.A. § 41-21-801.
In this matter, the dispositive issue is whether Appellant complied with T.C.A. § 41-21-801.
Specifically, the Tennessee Appellate Court affirmed the trial Court’s ruling that Appellant did not
comply with T.C.A. § 41-21-805 and § 41-21-807.
On page 6, in paragraph 3, of the Appellate Court’s Order it states in part:
In the present case, Mr. Sanford filed his complaint with the trial Court and included an
affidavit of indigence, but failed to include both an affidavit regarding his prior lawsuits
and a certified copy of his inmate trust account. ...
On appeal, Mr. Sanford insists that he indeed filed these documents with the trial court, and
that the dismissal of his claims on this basis is reversible error. After a thorough review of
the record, however, we have determined that the record simply does not contain anv
affidavit that details Mr. Sanford’s prior lawsuits, nor are documents pertaining to Mr.
Sanford’s inmate trust account included in the record.

6

Footnote 2 at the bottom of that page states:
TDOC avers that Mr. Sanford is a “prolific litigator” and that the Attorney General’s office
has defended against six prior lawsuits filed by Mr. Sanford.
Footnote 3 at the bottom of the same page states:
Even assuming that Mr. Sanford could supplement his complaint with the required
documents, we must conclude that he has failed to do so. C.F. Adams v Tenn. Dep’t of
Con., No. 2005-00471-COA-R3-CV, WL 1574277, at *4 (Tenn.Ct.App. May 30, 2007)
(noting that the petitioner had multiple opportunities to file the requisite affidavit, and in
light of his “repeated failures to furnish the court with the affidavit[,]” dismissal of the
petitioner’s complaint was proper.).
The Tennessee Appellate Court also concluded it need not consider the ruling of the trial Court as to
the other individual issues since “in 'Williams, we concluded that it was unnecessary to consider the
remainder of the issues raised on appeal, as the plaintiff’s failure to comply with Tenn. Code. Ann. §
41-21-801, et. seq., [precluded] further consideration of the merits of the claim by the trial court [,] and
that [a]ny findings resulting from that consideration [were] therefore with legal effect.” Id. at 480-481;
Bradfieldv Dukes, No. W2001-02067-COA-R3-CV, WL 1760237, at *3 (Tenn.Ct.App. Apr. 17,
2002).”
Footnote 4 at the bottom of page 7 states:
The trial court’s order of dismissal is, in large part, taken verbatim from the Respondent’s
memorandums in support of their motions to dismiss.
Finally, on page 8, the Tennessee Appellate Court stated:
As such, the trial court’s decision is modified to reflect that Mr. Sanford’s petition is
dismissed without prejudice solely on the basis of his failure to comply with Tennessee
Code Annotated section 41-21-805 et seq.
From the onset Appellant asserted and established he complied with T.C.A. § 41-21-801. In almost
every filing he declared “on the 9th day of October 2017, Plaintiff submitted an affidavit of indigence
pursuant to T.C.A. § 41-21-805 and a certified copy of his prison trust fund pursuant to T.C.A. § 41-21807.” Once the Appellees began claiming Appellant did not comply with § 41-21-801, Appellant
knowing he complied, started opposing their claims immediately. The opposition to their claims began
as far back as Appellant’s MOTION AND MEMORANDUM OF LAW IN OPPOSITION filed on the
18th day of December 2017. Appellant also stated on numerous accounts, “since the Appellees kept
challenging his compliance, in good faith, on the 26th day of February 2018, he resubmitted the
forms.”
7

I

As a result of Appellant complying with § 41-21-801, he was granted IFP status by the trial Court.
Appellant submits he couldn’t have been granted this status without complying with § 41-21-805 and §
41-21-807. As a result of complying with § 41-21-805, § 41-21-807, and being granted IFP status, the
first CCC fee of $4.28 started on 3/13/18. After which CCC fees of $3.83 (4/12/18), $4.85 (5/14/18),
$10.92 (6/12/18), $14.08 (7/12/18), $32.77 (8/14/18), $10.50 (9/13/18), $30.20 (10/12/18), $10.50
(11/08/18), $17.25 (12/10/18), $15.15 (1/14/19), $6.80 (2/14/19), $11.25 (3/14/19), $25.73 (5/14/19),
$19.95 (6/13/19), $13.50 (7/11/19), $19.60 (9/12/19), $18.40 (10/15/19) $17.60 (11/7/19) and $13.82
(12/10/19) has been deducted from his prison account totaling $300.98. Appellant separately submitted
a $13.75 Litigation Tax bringing the deduction grand total to $314.73.
When Appellant received the Tennessee Appellate Court’s Order he was baffled and disturbed. The
next day he wrote Mrs. Christine Smith, the staff member at his former prison responsible for Inmate’s
Trust funds, including notarizing Inmate’s § 41-21-801 statements. Appellant specifically requested “a
copy of your notary logbook and what you were notarizing is essential.” This was provided as Exhibit
1.
When Mrs. Smith responded to Appellant’s correspondence, she forwarded an authentic copy of
her actual log book. The log book shows dates and other Inmates, that she blocked for privacy, which
she had also notarized documents for. But more importantly, in the middle of the other Inmate’s names
it distinctly displays the date 2/27/18, the day after Appellate declared he resubmitted § 41-21-801.
The log book also displays her name, Christine Smith, Trust Fund and Appellant’s name and
TDOC number. This was provided as Exhibit 2. After Mrs. Smith provided the necessary information
and notarized the documents, she gave it to the prison mail room since Appellant provided a stamped
envelope addressed to the trial Court.
On the 6"' day of February 2018, Appellant received the log of his outgoing legal mail for the time
he declared he submitted the required documents. Hardeman County Correctional Facility’s mail room
provided an authentic document displaying all Appellant’s outgoing legal mail from 10/30/17 to
5/23/18. This was provided as Exhibit 3. This authentic document corroborates Appellant’s assertions
and disputes the Court’s findings. Appellant highlighted the line at the bottom of Exhibit 3 which
clearly reads:
Mail Status Date Sent Sent To
Recipient’s Address
OUTGOING 02/28/18 WAYNE CO CIRCUIT COURT CLERK 1016 Andrew Jackson Dr.

8

Appellant does not understand why the Courts are claiming these documents are not in the record.
Appellant did all he was required to do which was filling out the documents and forwarding through
the prison mail.
Rule 4(a)(1) of the Federal Rules of Appellate Procedure, requires notices filed with the Clerk of the
Court, by Prisoners who represent themselves, are to be considered filed at the moment the Prisoners
deliver such notices to prison authorities for forwarding. Houston v Lack, 487 U.S. 266, 108 S. Ct.
2379, 101 L.Ed. 2d245 (1988).
TDOC averred Appellant is a “prolific litigator” and has defended six prior lawsuits against him.
Acknowledging the description and the fact the Attorney General’s office has defended six prior
lawsuits filed by Appellant, it is unreasonable to believe Appellant isn’t familiar with the rules
especially the rules that will ultimately render a dismissal if they are not followed. Thus, it is irrational
to believe Appellant would have forgotten or omitted anything associated with the filing of this, or any,
Complaint especially since he has been so diligent in his defenses.
Since Appellant has, again, established he complied with the rules it was, and is, error and an abuse
of discretion to dismiss the Complaint based “solely on the basis of his failure to comply with
Tennessee Code Annotated section 41-21-805 et seq.”
After the filing of the three exhibits Appellant found the initial Certificate which was notarized on
the 26th day of February 2018. This was submitted as Exhibit 4.

CONCLUSION
In summary, Appellant resubmitted § 41-21-801 on the 26th day of February 2018. Christine Smith
of Trust Fund at HCCF notarized § 41-21-805 and § 41-21-807 on the 27th day of February 2018, and
HCCF’s mail room logged the mail as “OUTGOING” on the 28th day of February 2018.
Based on the totality of the evidence presented in this brief Appellant has established he indeed did
comply with §41-21 -801. A monthly CCC fee has been deducted since 3/13/18, in addition to
Appellant providing multiple exhibits which substantially contradict the findings of the Appellees and
the state Courts, thus, establishing he complied with the rules. Exhibits 2 and 3 clearly established
Appellant’s honesty and obedience to the rules since the onset of this Complaint. Appellant is also
submitting exhibit 4, as well as several other exhibits, to further establish his claims of complying with
the rules by submitting the requirements of § 41-21-801 and being diligent in his appeal efforts.

9

Appellant initially submitted this appeal to the Sixth Circuit. They never responded. Appellant then
submitted this appeal to the Middle District Court of Tennessee on the 7th day of June 2019.
On the 18th day of June 2019, the Middle District Court of Tennessee stamped the appeal
“Received.”
Appellant was then transferred back to South Central Correctional Center on the 23rd day of July
2019. Appellant’s mail was still going to the other prison before being forwarded to Appellant.
Eighty (80) days later on the 6th day of September 2019, Appellant finally received the appeal from
the Tennessee District Court with a note stating, “This should be mailed to: The Federal Supreme
Court.” It is unclear who wrote the note since it was not signed. Appellant submitted the appeal to this
honorable Court a week later.
Appellant included the first page of the appeal, a copy of the envelope with the stamped date he
received the envelope from the Tennessee District Court, and a copy of the note as exhibits for the
Court’s viewing to establish the foregoing.
On the 20th day of February, 2020, U.S. Supreme Court Clerk, Scott S. Harris, through Michael
Duggan, returned the appeal, for the third time, stating they did not have jurisdiction since the highest
Court in Tennessee, the Tennessee Supreme Court, had not ruled. Appellant responded with TRAP
Rule 39 - Exhaustion of Remedies, however they still refused jurisdiction.
TRAP Rule 39 - Exhaustion of Remedies, states:
In all appeals from criminal convictions or post-conviction relief matters from and after
July 1, 1967, a litigant shall not be required to petition for rehearing or to file an application
for permission to appeal to the Supreme Court of Tennessee following an adverse decision
of the Court of Criminal Appeals in order to be deemed to have exhausted all available
state remedies respecting a claim of error. Rather, when the claim has been presented to the
Court of Criminal Appeals or the Supreme Court, and relief has been denied, the litigant
shall be deemed to have exhausted all available state remedies available for that claim. On
automatic review of capital cases by the Supreme Court pursuant to Term. Code Ann., §3913-206, a claim presented to the Court of Criminal Appeals shall be considered exhausted
even when such claim is not renewed in the Supreme Court on automatic review.
Hence, this honorable Court should have accepted this lawful and meritorious appeal as timely since
he diligently attempted to submit it. It will clearly be established this appeal was erroneously denied
from both of the previous Courts.
It should be noted this honorable Court returned the Complaint several times before forcing
Appellant to submit the appeal to the Tennessee Supreme Court. The Tennessee Supreme Court stated
the appeal was jurisdictional and could not extend the appeal statue of limitations. Appellant explained
10

to them this honorable Court was forcing him to get a ruling from them. The Tennessee Supreme Court
again denied Appellant and also levied a $2,000 Bill Of Cost. Three deductions have already been
deducted from his prison account. (($36.37 (4/16/20), $19.94 (5/14/20), $18.20 (6/11/20) - $74.51))
Appellant respectfully requests the new Bill Of Cost be added to the requested relief.
Appellant avers this Writ must be granted since it does not contain erroneous factual findings or the
misapplication of a properly stated rule of law and the new evidence will change the outcome of the
case. Moreover, the new exhibits/evidence along with the other exhibits/evidence will compel this
honorable Court to reverse and remand the erroneous Order and rule Appellant prevailed and award
judgment in his favor.
Therefore, in light of the total evidence, the judgment must be reversed and remanded. In addition,
it should be ascertained it is now necessary to consider the remainder of the issues raised on appeal.
Respectfully Submitted,
Gerald A. S anford S r./#418871
SCCC
P. O. Box 279
Clifton, TN 38425
'I certify, declare, state, and verify under the penalty of perjury that the foregoing titled BRIEF OF
APPELLANT is true and correct and has been forwarded by first-class mail, prepaid postage to; Office
Of The Clerk, Scott S. Harris, Supreme Court Of The United States, 1 First St. N.E., Washington, D.C.
20543.
Executed on this 25!h day of June 2020.

jdjLotJ L

Af

Gerald A. Sanford/Sr. #418871

1 In accord with 28 U.S.C §1746 and 18 U.S.C. § 1621.
11

